HHS/OIG, Audit - "Review of Social Security Act Section 1915(c) Waiver
Payments for Home and Community-Based Services at Trinity Services, Inc., July
1, 2004, through June 30, 2005," (A-05-07-00056)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Social Security Act
Section 1915(c) Waiver Payments for Home and Community-Based Services at Trinity
Services, Inc., July 1, 2004, through June 30, 2005,"
(A-05-07-00056)
September 27, 2007
Complete
Text of Report is available in PDF format (2.45 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the Illinois
Department of Healthcare and Family Servicess (the State agency) claim for
Medicaid reimbursement for home and community-based services (HCBS) provided by
Trinity Services, Inc. (Trinity) during State fiscal year (SFY) 2005 complied
with Federal and State requirements.  Of the 3,877 HCBS reviewed, 78 were
unallowable because Trinity did not provide the services or did not meet
documentation requirements.
We recommended
that the State agency refund to the Federal Government the $50,670 paid to
Trinity for unallowable HCBS claimed in SFY 2005 and require Trinity to
implement internal controls to ensure it documents and claims reimbursement only
for HCBS actually provided.  The State
agency did not address our first recommendation but stated it would use our
findings to reiterate required policies and improve its administration of the HCBS program.